                                              Department of the Interior 
                                              Office of Inspector General 
                                                                          
                                                                              
                                                                              
                     AUDIT REPORT 
                                                                              
 
                                       
                                     
                                     
                                     
                    U.S. Fish and Wildlife Service 
                Federal Assistance Program Grants 
               Awarded to the State of New Hampshire 
                 Fish and Game Department From 
                July 1, 2004, Through June 30, 2006 



                                           
                                                
            
 
 
 
 
    Report No. R­GR­FWS­0016­2007                              March 2008 
                      DEPARTMENT OF THE INTERIOR
                              OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                     March 20, 2008

                                       AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Director of External Audits

Subject:       Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
               Awarded to the State of New Hampshire Fish and Game Department From
               July 1, 2004, Through June 30, 2006 (No. R-GR-FWS-0016-2007)

       This report presents the results of our audit of costs incurred by the State of New
Hampshire (State), Fish and Game Department (Department), under grants awarded by the U.S.
Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Federal
Assistance Program for State Wildlife Restoration and Sport Fish Restoration (Federal
Assistance Program). The audit included claims totaling approximately $14 million on 32 grants
that were open during State fiscal years (SFYs) ended June 30 of 2005 and 2006 (see Appendix
1). The audit also covered Department compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of hunting and fishing license
revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we found that the Department lacked adequate assent
legislation, had inadequate controls over its real property, did not report barter transactions on its
financial status reports, and had not implemented an accounting system for Federal Assistance
Program grants that is capable of being reconciled to the State’s new system.

       We provided a draft report to FWS and the Department for a response. We summarized
the Department and FWS Region 5 responses after each recommendation, as well as our
comments on the responses. We list the status of each recommendation in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
June 18, 2008. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader, Mr.
Chris Krasowski, or me at 703–487–5345.

cc: Regional Director, Region 5, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. The Acts also
require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agency. Finally, federal regulations and FWS guidance require States to
account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $14 million on the 32 grants that were open
during SFYs 2005 and 2006 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Department headquarters in Concord, NH,
and visited three fish hatcheries, three boat access areas, two wildlife management areas, and
one hunter education training center (see Appendix 2). We performed this audit to supplement,
not replace, the audits required by the Single Audit Act Amendment of 1996 and by Office of
Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.




                                                          2
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On March 31, 2005, we issued “U.S. Fish and Wildlife Service Federal Assistance Grants
Administered by the State of New Hampshire, Fish and Game Department, from July 1, 2001,
through June 30, 2003 (Report No. R-GR-FWS-0009-2004).” We followed up on all
recommendations in the report and found that the Department of Interior, Office of the Assistant
Secretary for Policy, Management and Budget (PMB) considers three recommendations resolved
but unimplemented. Two of the recommendations relate to unsupported charges for media
equipment. One recommendation relates to the Department’s inability to reconcile information
in its accounting system with information in the State’s system. We repeat the one prior audit
recommendation on the reconciliation of information in the accounting systems.




                                                3
We reviewed New Hampshire’s Comprehensive Annual Financial Reports and Single Audit
Reports for the SFYs ended June 30, 2005 and 2006. None of these reports contained any
findings that would directly impact the Department’s Federal Assistance Program grants or
programs under the grants. In addition, the Department’s Sport Fish Restoration and Wildlife
Restoration Programs were not selected for compliance testing in either the SFYs 2005 or 2006
Single Audits.




                                              4
                                    Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Inadequate Assent Legislation. The Department did not assent to the provisions in the
       Pittman-Robertson Wildlife Restoration Act, as required.

       Unreported Barter Transactions. The Department should have but did not report
       barter transactions that occurred on lands managed with Federal Assistance Program
       funds.

       Inadequate Controls Over Real Property. The Department did not maintain a
       comprehensive inventory of real property that identified the source of funding for the
       purchases of the property. It therefore may not be able to ensure control over lands
       purchased with Federal Assistance Program grant funds or license revenue.

       No Reconciliation of Department and State Accounting Systems. The Department
       had not implemented a prior recommendation to reconcile information in its accounting
       system for Federal Assistance Program grants with information in the State’s new
       system.

Findings and Recommendations

A.     Inadequate Assent Legislation

       The Code of Federal Regulations (50 C.F.R. § 80.3) requires States to pass legislation
       assenting to the provisions in the Acts before the State can participate in the Federal
       Assistance Program. During the grant period open between July 1, 2004, and June 30,
       2006, the Department received approximately $3.4 million in wildlife restoration grant
       funds without having the required assent legislation in place.

       The State passed legislation that assents to the provisions of the Dingell-Johnson Sport
       Fish Restoration Act but not to the Pittman-Robertson Wildlife Restoration Act.
       Department officials were not aware that the current assent legislation for fish restoration
       did not include wildlife restoration. As a result of not passing adequate assent legislation,
       the State could be ineligible to participate in the grant program, which could result in a
       loss of an estimated $3.4 million in grant funding.




                                                 5
     Recommendation

     We recommend that FWS require the Department to work with the State legislature to
     pass legislation that assents to the Pitman-Robertson Wildlife Restoration Act.

     Department Response

     Department officials concurred with the recommendation. They acknowledged that no
     State law exists which specifically references and assents to the provisions of the
     "Pittman-Robertson Wildlife Restoration Act" (16 USC Sec. 669, as amended). The
     Department will take steps to correct this during the next legislative session.
     FWS Response

     FWS regional officials concurred with the recommendation and stated that they will
     address any outstanding issues in the corrective action plan.

     OIG Comments

     While FWS concurred with the recommendation and Department officials indicated they
     are taking action to address it, additional information is needed in the corrective action
     plan. The plan should include:

        • the specific actions taken or planned to revise their assent legislation,

        • targeted completion dates,

        • titles of officials responsible for implementing the actions taken or planned, and

        • verification that FWS headquarters officials reviewed and approved of actions
          taken or planned by the Department.

B.   Unreported Barter Transactions

     Federal regulations (43 C.F.R. § 12.65) define program income as gross income received
     by the grantee that is directly generated by a grant supported activity or earned only as a
     result of the grant agreement during the grant period. The Department earned program
     income through approximately 12 barter agreements it enters into each year on its
     Wildlife Management Areas (WMAs). The barter agreements allow farmers to lease 20
     to 50 acre parcels of land on the WMAs in exchange for leaving crops or providing other
     services to improve and maintain wildlife habitat for a variety of species. Federal
     Assistance Program Grant W-11-D provides funding for wildlife habitat activities on
     these WMAs. The barter services are therefore directly related to grant-supported
     activities, and the value of the services is program income. Although federal regulations
     require grantees to account for such income in an approved manner, Department officials




                                              6
          did not report these transactions or associated program income to FWS on the financial
          status reports (SF-269s).2

          Department officials did not report the value of the services that earned program income
          in part because they did not determine the value of those services. In addition, some of
          the agreements have been in place for long periods of time and no written documentation
          exists on what services are to be performed. These agreements are verbal only.

          The federal regulations applicable to program income (43 C.F.R. § 12.65) require a
          grantee to deduct program income from the original total allowable expenditures to
          determine net allowable expenditures, unless the grantee receives approval to use an
          alternative method. The Department may therefore have been reimbursed in excess of
          the allowable federal share of grant expenditures. In addition, the use of verbal
          agreements—and lack of written documentation—on the services performed make it
          difficult to determine their value and benefit.

          Recommendations

          We recommend that FWS:

          1. resolve the unreported program income from barter services for FYs 2005 and 2006;

          2. ensure that the Department reports barter services on the SF-269s and treats the value
             of those services in accordance with the grant agreement, regulations, and FWS
             guidelines; and

          3. require that the Department use written agreements to document what services are to
             be provided for the benefit of wildlife habitat.

          Department Response

          Department officials did not understand why it was necessary to document barter
          agreements on financial status reports. The Department will take steps to use written
          agreements in the future and report this information, as required, pending further
          guidance from Fish and Wildlife Service.

          FWS Response

          FWS regional officials concurred with the recommendations and stated that they will
          address any outstanding issues in the corrective action plan.

          OIG Comments

          We note that on February 20, 2008, subsequent to the issuance of our draft report and the
          development of the State’s response to the draft, FWS issued an amendment to its Federal
2
    The SF-269s summarize grant income and expenditures for the FWS.


                                                       7
     Assistance Program guidance that states that they will not require States to report
     cooperative farming and grazing arrangements as program income when the “grantee
     allows an agricultural producer to farm or graze livestock on part of the grantee’s land”
     and the farming or grazing activities “advance their [the grantees] fish or wildlife
     management objectives” (522 FW 19, Exhibit 1). However, it is not clear from this
     amendment whether services other than the farming or grazing activities should be
     treated as program income. We also note the State must follow its own regulations
     regarding barter transactions.

     We have not modified the finding in this report because it will be an FWS management
     decision as to whether the value of any of the services received under the particular barter
     arrangements in the State should be reported to FWS and/or treated as program income.

     While FWS concurred with the recommendations, and the Department indicated they will
     take steps to address them, additional information is needed in the corrective action plan.
     The plan should include:

        •   specific actions taken or planned to address the recommendations,

        •   targeted completion dates,

        •   titles of officials responsible for implementation, and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

C.   Inadequate Controls Over Real Property

     Federal regulations require States to maintain control over land purchased with Federal
     Assistance Program funds and license revenue. To help maintain control over the use of
     its land, the Department’s Land Resources Bureau uses a database to maintain its land
     records. The Department’s land records are not adequate to assure effective control over
     lands acquired with Federal Assistance Program grant funds and with license revenues.

     Under 50 C.F.R. § 80.19, each State must maintain current and complete property records
     in accordance with the requirements contained in the FWS Manual and 2 C.F.R. § 235.
     In addition, 50 C.F.R. § 80.18 and the FWS Manual (522 FW 1.16) require each State to
     be responsible for the accountability and control of all assets acquired with Federal
     Assistance Program grant funds to assure that they are used for the purpose for which
     they were acquired throughout their useful life. Finally, 50 C.F.R. § 80.4 extends the
     same accountability and control requirements to those assets acquired with license
     revenues.

     The Department’s database lacked information on the source of funding for land
     purchases. Department personnel must therefore examine each individual land case file
     to determine the origin of funding. Additionally, the information contained in the



                                              8
Department’s database on acreage and cost of properties may not be accurate. We were
able to identify some Department properties purchased with Federal Assistance Program
grants because the FWS maintains its own list of such lands. We selectively compared
information on the acreage and cost of properties in the Department’s database with
information in the FWS-maintained list. We found that 85 out of 111 matched properties
had conflicting information regarding acreage and/or cost. The Department’s land
official stated that the Department has not reconciled records in its database with FWS
land records to determine the accuracy and completeness of the Department’s records.

Accordingly, the Department cannot ensure that such lands are being used for their
intended purposes.

Recommendations

We recommend that FWS require the Department to:

1. identify the source of funding for its land purchases in the Department’s databases
   and

2. reconcile its land records with FWS land records.

Department Response

Department officials concurred with the recommendations and are currently reevaluating
the Department’s land control and management needs. The officials plan to seek the
resources necessary to develop a comprehensive State lands database that will identify
the source of funding. Department officials will also take action to reconcile the
Department’s land records with FWS land records.

FWS Response

FWS regional officials concurred with the recommendations and stated that they will
address any outstanding issues in the corrective action plan.

OIG Comments

While FWS concurred with the recommendations and Department officials indicated they
are taking action to address them, additional information is needed in the corrective
action plan. In addition to the specific actions planned or taken, the plan should include:

   • targeted completion dates,

   • titles of officials responsible for implementation, and

   • verification that FWS headquarters officials reviewed and approved of actions
     taken or planned by the Department.



                                         9
D.   No Reconciliation of Department and State Accounting Systems

     We previously reported that the Department did not have the ability to reconcile
     information in its Federal Aid Accounting System (FAAS) with information in the New
     Hampshire Integrated Financial System (NHIFS). During the prior audit period, the
     Department used a vendor-produced software program that it had modified to facilitate
     Federal Assistance Program accounting and reporting. This FAAS operated as a stand-
     alone system that did not interface with NHIFS. Currently, the Department uses an Excel
     spreadsheet for charging salaries and fringe benefits to the grants and QuickBooks for
     tracking other direct costs. As with the software programs used during the prior audit,
     these programs do not interface with NHIFS and the Department cannot reconcile its
     records to the State. The Department is in the process of implementing a new financial
     management system (Enterprise Resources Planning) which it plans to make operational
     in SFY2009.

     Federal regulations (43 C.F.R. § 12.60 Standards for financial management systems
     (a)(2)) require each State’s accounting procedures to allow for sufficient preparation of
     grant reports and for the tracing of funds to a level of expenditure adequate to
     demonstrate compliance with grant provisions. Additionally, 2 C.F.R. § 225 (OMB
     Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments) specifies
     that allowable costs under federal awards must be necessary and reasonable, be allocable
     and authorized, and be adequately documented.

     The State’s accounting system is unable to provide the detail required for grant reporting
     purposes. To control and account for Federal Assistance Program funding, the
     Department has developed written policies and procedures to describe the accounting
     processes used for recording costs (salaries and fringe benefits in an Excel spreadsheet
     and other direct costs in QuickBooks). However, the process is dependent on a manual
     operation that one person controls. Additionally, the State and Department may record
     the same individual expenses as different expenses in each respective system.

     Without the ability to reconcile the two systems, the Department cannot assure that it is
     not claiming duplicate costs. As a result, internal control over the recording and billing
     of Federal Assistance Program grant funds is weak and the FWS has no assurance that
     program funds reimbursed to the Department were for allowable expenses under the
     grants. Therefore, as reported in the Office of Legislative Budget Assistant’s report
     (“State of New Hampshire Fish and Game Fund, Financial and Compliance Audit Report
     for the Fiscal Year Ended June 30, 2003”), the inability to reconcile the Department and
     State accounting systems is a material weakness in properly accounting for Federal
     Assistance Program grant costs. We are therefore repeating the recommendation from
     our prior audit report. The implementation of this recommendation will be tracked under
     the tracking process for the prior audit, and any documentation pertaining to it should
     therefore be submitted to PMB.




                                             10
Repeat Recommendation

We recommend that FWS monitor the implementation of the new statewide financial
accounting system and ensure that the Department implements an accounting system for
Federal Assistance Program grants that is capable of being reconciled to the State’s new
system, including the reconciliation of labor costs on Federal Assistance Program grants
(Recommendation B in report R-GR-FWS-0009-2004).

Department Response

Department officials concurred that they currently do not have the ability to adequately
reconcile information in the accounting system they use to account for Federal Assistance
Program grant funds with information in the State's accounting system. However, while
they rely heavily on a manual system, they believe they have adequate steps to ensure
that they charge personnel post costs to the appropriate grant and that the Department
receives reimbursement for only allowable expenses under the Federal Assistance
Program grants. Additionally, the State's Enterprise Resource Planning (ERP) system is
scheduled to be phased-in on July 1, 2008. The Department expects that the full
implementation of the ERP system within a few years will eliminate the need for a
separate accounting system for Federal Assistance Program grants.

FWS Response

FWS regional officials concurred with the recommendation and stated that they will
address any outstanding issues in the corrective action plan.

OIG Comments

The implementation of this recommendation will be tracked under the prior audit report.
Accordingly, FWS should send documentation regarding the implementation of this
recommendation to PMB.




                                       11
                                               Appendix 1
   NEW HAMPSHIRE FISH AND GAME DEPARTMENT
    FINANCIAL SUMMARY OF REVIEW COVERAGE
       JULY 1, 2004 THROUGH JUNE 30, 2006

GRANT NUMBER   GRANT AMOUNT    CLAIMED COSTS
 F-50-R-21          $601,336        $628,595
 F-50-R-22          $752,000        $826,505
 F-53-E-18          $468,332        $245,964
 F-53-E-19          $344,000        $232,852
 F-60-D-12        $1,922,500      $2,407,641
 F-60-D-13        $2,131,000      $2,588,001
 F-61-R-11          $292,000        $295,847
 F-61-R-12          $336,000        $328,248
 F-61-R-13          $788,000        $410,903
 F-100-R-21           $5,000          $5,000
 F-100-R-22           $5,000          $5,000
 F-100-R-23           $5,000          $5,000
 FW-17-C-30          $78,208         $81,263
 FW-17-C-31          $90,000         $82,213
 FW-23-D-15          $72,000         $86,941
 FW-23-D-16         $108,000         $90,239
 FW-25-T-11         $288,000        $244,869
 FW-25-T-12         $280,000        $250,372
 FW-27-D-15         $197,000        $150,875
 FW-28-D-10         $313,000        $235,458
 FW-28-D-11         $360,000        $351,867
 FW-29-O-8          $218,400        $117,862
 FW-30-T-6          $110,624        $103,657
 FW-30-T-7          $133,000        $144,943
 W-11-D-64          $264,000        $204,000
 W-11-D-65          $302,800        $208,735
 W-66-S-32          $478,667        $475,861
 W-66-S-33          $518,667        $576,351
 W-66-S-34          $548,000        $633,312
 W-87-D-2           $781,683        $791,569
 W-89-R-5           $612,000        $661,834
 W-89-R-6           $600,000        $586,824
 TOTAL           $14,004,217     $14,058,601

                     12
                                          Appendix 2

NEW HAMPSHIRE FISH AND GAME DEPARTMENT
             SITES VISITED

                Headquarters

           Concord, New Hampshire


              Boat Access Areas

                Hot Hole Pond
                Sewalls Falls
                 Squam Lake


               Fish Hatcheries

             Milford Fish Hatchery
            New Hampton Hatchery
               Warren Hatchery


      Owl Brook Hunter Education Center


         Wildlife Management Areas

                     Hirst
               Hoit Road Marsh




                     13
                                                                             Appendix 3


               NEW HAMPSHIRE FISH AND GAME DEPARTMENT
             STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                  Status                          Action Required
A.,B.1, B.2, B.3,   FWS management concurs          Additional information is needed in the
C.1, and C.2        with the recommendations, but   corrective action plan, including the
                    additional information is       actions taken or planned to implement
                    needed as outlined in the       the recommendations, targeted
                    “Actions required” column.      completion date(s), the title of
                                                    official(s) responsible for
                                                    implementation, and verification that
                                                    FWS headquarters officials reviewed
                                                    and approved of actions taken or
                                                    planned by the State. We will refer
                                                    recommendations not resolved and/or
                                                    implemented at the end of 90 days
                                                    (after June 18, 2008) to the Assistant
                                                    Secretary for Policy, Management and
                                                    Budget for resolution and/or tracking of
                                                    implementation.

D                   Repeat Recommendation B         Provide documentation regarding the
                    from our prior report (R-GR-    implementation of this recommendation
                    FWS-0009-2004). PMB             to PMB.
                    considers this
                    recommendation resolved but
                    not implemented.




                                       14
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
